Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE POWER WHEELCHAIR
CLAIMS FREQUENTLY DID NOT
   MEET DOCUMENTATION
      REQUIREMENTS




                    Daniel R. Levinson
                     Inspector General

                      December 2009
                     OEI-04-07-00401
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
           E X E C U T I V E                                                 S U M M A R Y


                                      OBJECTIVE
                                      To determine the extent to which standard and complex rehabilitation
                                      power wheelchair claims met Medicare documentation requirements
                                      during the first half of calendar year 2007.


                                      BACKGROUND
                                      Medicare beneficiaries are eligible to receive power wheelchairs under
                                      Medicare Part B coverage of durable medical equipment. Beneficiaries
                                      receive power wheelchairs from suppliers, which bill the Medicare
                                      program for reimbursement. The supplier receives the power
                                      wheelchair prescription, along with documentation from the
                                      beneficiary’s medical record to support the power wheelchair’s necessity,
                                      from the prescribing physician. Based on the prescription, the supplier
                                      recommends a specific power wheelchair for the beneficiary. The
                                      physician must then review and approve the supplier’s
                                      recommendation.
                                      Standard power wheelchairs accounted for nearly three-quarters of
                                      Medicare’s power wheelchair claims and expenditures in the first half of
                                      2007. These power wheelchairs provide basic, daily mobility. Complex
                                      rehabilitation power wheelchairs accounted for less than 7 percent of
                                      power wheelchair expenditures during the first half of 2007. To receive
                                      a complex rehabilitation power wheelchair, the beneficiary’s mobility
                                      limitation must result from a neurological condition, muscle disease, or
                                      skeletal deformity. Complex rehabilitation power wheelchairs can be
                                      upgraded with power options and other electronic features to
                                      accommodate beneficiaries’ mobility needs.
                                      To receive Medicare payment for a power wheelchair, suppliers must
                                      meet all documentation requirements included in the power wheelchair
                                      Local Coverage Determinations (LCD). The power wheelchair LCDs
                                      published by each of Medicare’s four Durable Medical Equipment
                                      Medicare Administrative Contractors are identical. The LCD requires
                                      that suppliers maintain a variety of documents that support the
                                      beneficiary’s need for, and the appropriateness of, the provided power
                                      wheelchair. Specifically, the supplier must have the power wheelchair
                                      prescription, supporting documentation from the beneficiary’s medical
                                      record, the specialty evaluation report, the detailed product description,
                                      the home assessment report, and proof of delivery. For many of these
                                      documents, the LCD includes requirements related to the documents’

OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   i
E X E C U T I V E                             S U           M M A R Y




                                        contents and the timeframes within which the supplier should create or
                                        receive the documents.

                                        We selected a random sample of 375 claims for standard and complex
                                        rehabilitation power wheelchairs supplied to Medicare beneficiaries in
                                        the first half of 2007. We then collected documents required by
                                        Medicare from the power wheelchair suppliers, determined the extent to
                                        which claims met documentation requirements, and projected our
                                        results nationally.


                                        FINDINGS
                                        Three out of five claims for standard and complex rehabilitation
                                        power wheelchairs did not meet Medicare documentation
                                        requirements during the first half of 2007. We found that 60 percent
                                        of Medicare claims for standard and complex rehabilitation power
                                        wheelchairs that beneficiaries received in the first half of 2007 did not
                                        meet one or more documentation requirements. Power wheelchair
                                        claims that did not meet all documentation requirements accounted for
                                        $112 million in improper Medicare payments, out of $189 million total
                                        allowed by Medicare during the 6-month period. Beneficiaries were
                                        responsible for paying $22 million of this amount. Power wheelchair
                                        claims were more likely to meet some documentation requirements than
                                        others. Error rates ranged from 1 percent of claims for which the
                                        suppliers did not submit proof of delivery to 40 percent of claims for
                                        which the supporting documentation and detailed product descriptions
                                        were not submitted or were incomplete. Two out of five power
                                        wheelchair claims had multiple errors. In addition, suppliers submitted
                                        incomplete documents almost three times as often as they failed to
                                        submit required documents. The specialty evaluation report was one of
                                        the documents most often not submitted by complex rehabilitation
                                        power wheelchair suppliers.
                                        Medicare documentation error rates varied by power wheelchair type
                                        and supplier volume during the first half of 2007. Complex
                                        rehabilitation power wheelchair claims had a higher documentation
                                        error rate (93 percent) than standard power wheelchair claims
                                        (58 percent). However, because suppliers provided over 13 times more
                                        standard than complex rehabilitation power wheelchairs,
                                        documentation errors for standard power wheelchair claims resulted in
                                        more improper payments than claims for complex rehabilitation power
                                        wheelchairs ($97 million and $15 million, respectively). Standard power


  OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   ii
E X E C U T I V E                                   S U           M M A R Y



                                      wheelchair claims submitted by low-volume suppliers had a higher
                                      documentation error rate (72 percent) than those from high-volume
                                      suppliers (55 percent). However, claims that high-volume suppliers
                                      submitted accounted for more improper payments than did claims
                                      submitted by low-volume suppliers ($77 million and $20 million,
                                      respectively).


                                      RECOMMENDATIONS
                                      Power wheelchair suppliers must maintain specific documentation to
                                      support beneficiaries’ need for the provided power wheelchairs.
                                      Medicare policy requires that suppliers and prescribing physicians
                                      coordinate to ensure that beneficiaries receive the most appropriate
                                      equipment to accommodate their mobility needs.

                                      We found that 60 percent of claims for standard and complex
                                      rehabilitation power wheelchairs that beneficiaries received in the first
                                      half of 2007 did not meet all Medicare documentation requirements.
                                      These claims accounted for $112 million in improper Medicare
                                      payments, out of the $189 million total allowed by Medicare.
                                      Beneficiaries were responsible for paying $22 million of this amount.

                                      We also found that complex rehabilitation power wheelchair claims had
                                      a higher documentation error rate than standard power wheelchair
                                      claims. Standard power wheelchair claims submitted by low-volume
                                      suppliers had a higher documentation error rate than those from
                                      high-volume suppliers.
                                      Based on these findings, we recommend that the Centers for Medicare
                                      & Medicaid Services (CMS):
                                      Improve compliance with Medicare’s power wheelchair
                                      documentation requirements. CMS should consider the following
                                      methods for improving compliance:

                                             conduct additional reviews of power wheelchair claims,
                                             recover overpayments from suppliers that do not meet
                                              documentation requirements and consider further action as
                                              appropriate, and
                                             increase education for suppliers and prescribing physicians about
                                              documentation requirements.
                                      Take appropriate action on sampled claims found to be in error.


OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   iii
E X E C U T I V E                                 S U           M M A R Y




                                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                      RESPONSE
                                      CMS concurred with both of our recommendations. CMS noted that it
                                      has multiple efforts underway or planned that align with each
                                      suggested method to improve compliance with Medicare’s power
                                      wheelchair documentation requirements. CMS will also forward the
                                      sampled claims we found to be in error to the appropriate contractors to
                                      identify and recover overpayments. We will forward information on
                                      these claims to CMS under separate cover.




OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   iv
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                    Three out of five claims for standard and complex
                    rehabilitation power wheelchairs did not meet Medicare
                    documentation requirements during the first half of 2007 . . . . . . 14

                    Medicare documentation error rates varied by power
                    wheelchair type and supplier volume during the
                    first half of 2007 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                    Agency Comments and Office of Inspector General Response . . . 24


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
                    A: Medicare’s Power Wheelchair Documentation Requirements . 26

                    B: Population and Sample Sizes by Stratum, First
                       Half of 2007 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                    C: Incomplete Documentation Error Rates, First Half of 2007 . . 28

                    D: Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 29

                    E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
           I N T R O D U C T I O N


                                      OBJECTIVE
                                      To determine the extent to which standard and complex rehabilitation
                                      power wheelchair claims met Medicare documentation requirements
                                      during the first half of calendar year 2007.


                                      BACKGROUND
                                      Between 1999 and 2003, Medicare payments for power wheelchairs
                                      increased approximately 350 percent, from $259 million to $1.2 billion,
                                      while overall Medicare program expenditures rose 28 percent. 1 In 2005
                                      and 2006, the Centers for Medicare & Medicaid Services (CMS) revised
                                      its policies related to power wheelchair coverage and coding in response
                                      to numerous instances of fraud and abuse and the growth in Medicare
                                      power wheelchair expenditures. 2 In 2007, approximately 173,300
                                      Medicare beneficiaries received power wheelchairs, at a total cost of
                                      $686 million. 3
                                      Medicare beneficiaries are eligible to receive power wheelchairs under
                                      Medicare Part B coverage of durable medical equipment (DME). Power
                                      wheelchairs are medically necessary for beneficiaries who cannot
                                      perform mobility-related activities of daily living using other mobility-
                                      assistive equipment, such as a cane, manual wheelchair, or power-
                                      operated scooter. 4, 5 Most beneficiaries who require power wheelchairs
                                      are unable to walk and have severe upper body weakness because of a
                                      neurologic or muscular condition. 6
                                      Medicare beneficiaries receive power wheelchairs from DME suppliers,
                                      which bill the Medicare program for reimbursement. The supplier
                                      receives the power wheelchair prescription, along with documentation
                                      from the beneficiary’s medical record to support the power wheelchair’s



                                           1   71 Fed. Reg. 17021, 17022 (Apr. 5, 2006).
                                           2
                                         CMS, Pub. No. 11272P, 2006 Fee Schedule Amounts for Power Mobility Devices Have
                                      Been Refined, November 2006.
                                           3   Office of Inspector General (OIG) analysis of CMS’s claims data, July 2008.
                                           4   Medicare National Coverage Determinations Manual, Section 280.3. Last modified in
                                      August 2005.
                                           5 Based on Medicare’s National Coverage Decision for Power Mobility Devices, mobility-
                                      related activities of daily living include toileting, feeding, dressing, grooming, and bathing
                                      in customary locations within the home.
                                        6 CMS’s Medicare Learning Network, Medicare Coverage of Power Mobility Devices:
                                      Power Wheelchairs and Power Operated Vehicles, April 2006.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   1
I N T R O D           U C T                I O N




                                       necessity, from the prescribing physician. 7 Based on the prescription,
                                       the supplier recommends a specific power wheelchair. The physician
                                       must then review and approve the supplier’s recommendation. 8
                                       The beneficiary may choose to rent or purchase the power wheelchair. 9
                                       However, most Medicare beneficiaries choose to purchase power
                                       wheelchairs. 10
                                       To receive reimbursement, suppliers submit claims to Medicare for
                                       power wheelchairs using Healthcare Common Procedure Coding System
                                       codes (procedure codes). Medicare determines the highest dollar
                                       amount that suppliers may be reimbursed for each procedure code (fee
                                       schedule amount). Medicare pays 80 percent of the fee schedule amount
                                       and the beneficiary is responsible for the remaining 20 percent.
                                       Power Wheelchair Types
                                       Medicare covers more than 650 power wheelchair models. Medicare
                                       assigns each model to 1 of Medicare’s 42 power wheelchair procedure
                                       codes (K0813–K0864). 11 The procedure code assignment is based on the
                                       model’s performance, patient weight capacity, seat type, portability, and
                                       power seating system capability. 12
                                       Two types of power wheelchairs, standard and complex rehabilitation,
                                       accounted for over 80 percent of all Medicare power wheelchair
                                       expenditures in the first half of 2007. 13 These are covered by Medicare


                                            7 Ibid.
                                            8 DME Medicare Administrative Contractors in jurisdictions A, B, C, and D,
                                                                                                                   Local
                                       Coverage Determination (LCD) for Power Mobility Devices (hereinafter referred to as LCD
                                       for Power Mobility Devices). Available online at
                                       http://www.cms.hhs.gov/mcd/viewlcd.asp?lcd_id=23598&lcd_version=18&show=all.
                                       Accessed on October 16, 2007.
                                         9 Ibid. Medicare covers power wheelchairs under a capped rental arrangement.
                                       Medicare pays for a maximum of 13 continuous months of rental. Should a beneficiary
                                       choose to rent his or her power wheelchair, the supplier must transfer ownership to the
                                       beneficiary after the 13th month.
                                            10
                                            In the first half of 2007, new power wheelchair purchases accounted for 95 percent of
                                       all Medicare power wheelchair expenditures. (OIG analysis of 2007 CMS claims data,
                                       January 2009.)
                                            11
                                           Medicare has not assigned power wheelchairs to procedure codes K0817–K0819,
                                       K0832–K0834, and K0844–K0847.
                                            12
                                           Statistical Analysis DME Regional Carrier, Power Mobility Device Coding Guidelines,
                                       August 3, 2006.
                                            13 OIG analysis of claims from the National Claims History file submitted under
                                       procedure codes K0823 and K0835–K0864 with dates of service from January 1 to June 30,
                                       2007, processed as of June 30, 2007.



 OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   2
  I N T R O D                  U C T                I O N



                                      under 27 procedure codes, which include 395 power wheelchair
                                      models. 14
                                      Standard power wheelchairs. In the first half of 2007, procedure code
                                      K0823 was the most frequently reimbursed power wheelchair type; it
                                      accounted for nearly three-quarters of Medicare’s power wheelchair
                                      claims and expenditures. 15 As of July 2009, Medicare covered 98 power
                                      wheelchair models under procedure code K0823. 16 We refer to K0823
                                      power wheelchairs as “standard power wheelchairs” in this report.

                                      Standard power wheelchairs are designed to provide basic, daily
                                      mobility for persons weighing less than 300 pounds and feature an
                                      automotive-style seat. These power wheelchairs cannot be upgraded
                                      with power options (e.g., a powered seating system) or other electronic
                                      features (e.g., a device to enable the user to control the chair by sipping
                                      and puffing through a straw). 17 Medicare’s 2007 fee schedule amount
                                      for standard power wheelchairs was $4,024. 18, 19
                                      Complex rehabilitation power wheelchairs. Medicare payments for complex
                                      rehabilitation power wheelchairs accounted for less than 7 percent of
                                      power wheelchair claims and expenditures in the first half of 2007. 20
                                      As of July 2009, Medicare covered 297 complex rehabilitation power
                                      wheelchair models under 26 procedure codes. 21, 22
                                      Complex rehabilitation power wheelchairs can be upgraded with power
                                      options and other electronic features to accommodate beneficiaries’
                                      specific mobility needs. 23 For a beneficiary to receive many types of


                                           14 Medicare Pricing, Data Analysis, and Coding (PDAC) contractor,                                               Motorized
                                      Wheelchair Product Classification List, July 16, 2009.
                                           15 OIG analysis of claims from the National Claims History file submitted under
                                      procedure code K0823 with dates of service from January 1 to June 30, 2007, processed as of
                                      June 30, 2007.
                                           16   Medicare PDAC contractor, op. cit.
                                           17 LCD for Power Mobility Devices, “Code Specific Requirements” and “Definitions.”
                                           18 DME, Prosthetics, Orthotics, and Supplies (DMEPOS) 2007 Fee Schedule.
                                           19 In January 2009, the fee schedule amount for standard power wheelchairs was
                                      reduced by 9.5 percent, to $3,641.
                                        20 OIG analysis of claims from National Claims History file submitted under procedure
                                      codes K0835–K0864 with dates of service from January 1 to June 30, 2007, processed as of
                                      June 30, 2007.
                                           21 DMEPOS Supplier Quality Standards, August 2007, p. 11. Complex rehabilitation
                                      procedure codes are K0835–K0843 and K0848–K0864.
                                           22   Medicare PDAC contractor, op. cit.
                                           23   LCD for Power Mobility Devices, “Code Specific Requirements.”



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   3
I N T R O D                U C T                I O N



                                      complex rehabilitation power wheelchairs, the beneficiary’s mobility
                                      limitation must result from a neurological condition, muscle disease, or
                                      skeletal deformity. 24 Medicare’s 2007 fee schedule amounts for complex
                                      rehabilitation power wheelchairs ranged from $4,132 to $11,965. 25, 26
                                      Medicare Documentation Requirements for Power Wheelchairs
                                      Section 1833(e) of the Social Security Act states in part that “no
                                      payment shall be made to any provider . . . unless there has been
                                      furnished such information as may be necessary in order to determine
                                      the amounts due such provider.” The Social Security Act, Code of
                                      Federal Regulations, Medicare’s National Coverage Decision for Power
                                      Mobility Devices, and Medicare’s Local Coverage Determinations (LCD)
                                      for Power Mobility Devices specify the circumstances under which
                                      power wheelchairs are reasonable and necessary. 27, 28 To meet coverage
                                      requirements, these guidances require that suppliers maintain a variety
                                      of documents that support the beneficiary’s need for, and the
                                      appropriateness of, the provided power wheelchair.

                                      For any item to be covered by Medicare, it must “meet all . . . applicable
                                      Medicare statutory and regulatory requirements.” 29 Medicare requires
                                      the following documentation to support power wheelchair claims:

                                       power wheelchair prescription,

                                       supporting documentation from the beneficiary’s medical record
                                        (hereinafter “supporting documentation”),

                                       specialty evaluation report (for complex rehabilitation power
                                        wheelchairs only),

                                       detailed product description,


                                           24   LCD for Power Mobility Devices, “Indications and Limitations of Coverage and/or
                                      Medical Necessity.”
                                           25 DMEPOS 2007 Fee Schedule.
                                           26 In January 2009, the fee schedule amounts were reduced by 9.5 percent, to between
                                      $3,739 and $10,828.
                                        27 See 42 U.S.C. § 1395m(a)(1)(E)(iv), § 1834(a)(1)(E)(iv) of the Social Security Act,
                                      42 CFR 410.38(c)(2), Medicare’s National Coverage Decision for Power Mobility Devices,
                                      and LCD for Power Mobility Devices. LCDs provide guidance to the public and the medical
                                      community within their jurisdictions. CMS requires that the power wheelchair LCDs be
                                      the same for each jurisdiction to ensure uniformity for DMEPOS suppliers that operate
                                      nationally.
                                        28 The term “power mobility device” refers to both power wheelchairs and power-operated
                                      vehicles, which are commonly referred to as scooters. LCD for Power Mobility Devices.
                                           29   LCD for Power Mobility Devices.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   4
I N T R O D             U C T                I O N




                                        home assessment report, and

                                        proof of delivery. 30
                                       Each of these documents is described in more detail below. For many
                                       of these documents, the LCD includes requirements related to the
                                       documents’ contents and the timeframes within which the supplier
                                       should create or receive the documents.
                                       Prescription. Medicare requires suppliers to obtain the power wheelchair
                                       prescription from the physician who examined the beneficiary. 31, 32 The
                                       supplier must receive the prescription within 45 days of the
                                       beneficiary’s examination date and before delivering the power
                                       wheelchair to the beneficiary. 33 Power wheelchair prescriptions must
                                       include seven elements:

                                            1. beneficiary name,

                                            2. examination date,

                                            3. diagnoses and conditions that support the claim,

                                            4. item description,

                                            5. expected length of time the beneficiary will need the chair,

                                            6. prescribing physician signature, and

                                            7. prescription date.




                                            30 The
                                                 LCD for Power Mobility Devices requires all listed documents, other than proof of
                                       delivery, which is required by 42 CFR § 424.57(c)(12).
                                            31
                                             LCD for Power Mobility Devices, “Documentation Requirements.” In addition to being
                                       part of the power wheelchair LCD, this requirement is codified in the Social Security Act at
                                       section 1843(a)(1)(E)(iv) and is also found in the regulations issued by CMS at 42 CFR
                                       § 410.38(c)(2)(ii).
                                         32 Section 302(a)(2) of the Medicare Prescription Drug, Improvement, and Modernization
                                       Act of 2003, P.L.No. 108-173, amended the Social Security Act to include section
                                       1834(a)(1)(E)(iv), requiring that a physician or other treating practitioner assess the
                                       beneficiary’s need for a power wheelchair during a face-to-face examination before writing a
                                       prescription. See 42 U.S.C. § 1395m(a)(1)(E)(iv); section 1843(a)(1)(E)(iv) of the Social
                                       Security Act. If a specialist, such as a physical or occupational therapist, performs the
                                       evaluation, a physician still must review the examination report and sign and date it to
                                       meet Medicare requirements. See LCD for Power Mobility Devices.
                                            33 See
                                                LCD for Power Mobility Devices. The 45-day period does not include the time
                                       required by the supplier to provide the power wheelchair to the beneficiary, as time may be
                                       required to assemble or adjust it to meet the specific needs of the beneficiary.



 OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   5
I N T R O D                 U C T                I O N



                                      The supplier must document the date it receives the prescription using
                                      a date stamp or an equivalent method. 34
                                      Supporting documentation. The supplier must also receive documentation
                                      from the prescribing physician that supports the medical necessity for
                                      the power wheelchair. 35 The supplier must receive the supporting
                                      documentation within 45 days after the physician’s examination of the
                                      beneficiary and before the power wheelchair’s delivery. 36
                                      The medical record from the beneficiary’s examination is often sufficient
                                      supporting documentation to demonstrate the medical necessity for the
                                      power wheelchair. 37 However, the physician’s medical record notes
                                      from the examination must clearly indicate that the primary reason for
                                      the visit was to assess the beneficiary’s need for a power wheelchair. A
                                      physician-completed form or letter of attestation may not serve as the
                                      supporting documentation. The supplier must document the date it
                                      receives the supporting documentation using a date stamp or an
                                      equivalent method. 38
                                      Specialty evaluation report. A beneficiary who receives a complex
                                      rehabilitation power wheelchair must receive a specialty evaluation, in
                                      addition to the physician’s initial examination. The specialty evaluation
                                      report must document the medical necessity for the power wheelchair
                                      and each recommended option and accessory. A medical professional
                                      with experience in rehabilitation power wheelchair evaluations, such as
                                      an occupational or physical therapist, must perform the specialty
                                      evaluation. 39
                                      Detailed product description. Based on the physician’s prescription, the
                                      supplier determines the specific power wheelchair that is appropriate
                                      for the beneficiary. The supplier must prepare a detailed product
                                      description that lists the specific power wheelchair and all options and
                                      accessories. This document should include a procedure code, a



                                           34   LCD for Power Mobility Devices.
                                           35 See 42 CFR 410.38(c)(2)(iii);                   LCD for Power Mobility Devices, “Documentation
                                      Requirements.”
                                           36 Ibid. The 45-day period does not include the time required by the supplier to provide
                                      the power wheelchair to the beneficiary, as additional time may be required to make or
                                      adjust it to meet the specific needs of the beneficiary.
                                           37 Preamble to Final Rule: 42 CFR Part 410.38(c), p. 10.
                                           38 LCD for Power Mobility Devices.
                                           39   LCD for Power Mobility Devices, “Documentation Requirements.”



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   6
I N T R O D          U C T              I O N




                                         description, a fee schedule amount, and the charge for each item the
                                         supplier plans to bill. 40
                                         The supplier is required to submit the detailed product description for
                                         the prescribing physician’s approval. The supplier must receive the
                                         signed and dated detailed product description from the physician before
                                         delivering the power wheelchair to the beneficiary. The supplier must
                                         document the date it receives the detailed product description using a
                                         date stamp or an equivalent method.
                                         Home assessment report. The supplier must perform an onsite home
                                         assessment before or during the power wheelchair’s delivery to verify
                                         that the beneficiary can adequately maneuver the chair in his or her
                                         home. The assessment should consider the home’s layout, surfaces, etc.
                                         The supplier must maintain a written report of the assessment. 41
                                         Proof of delivery. The supplier must maintain documentation, such as a
                                         delivery slip or an invoice, to show that the power wheelchair was
                                         delivered to the beneficiary. 42
                                         Appendix A contains a summary of Medicare’s power wheelchair
                                         documentation requirements.
                                         Prior Office of Inspector General Work
                                         OIG has conducted several evaluations of power wheelchairs in the
                                         Medicare program. 43 In 2001, OIG evaluated suppliers’ compliance
                                         with power wheelchair documentation requirements. That report found
                                         that over half of reviewed claims paid in 2001 under the most frequently
                                         reimbursed procedure code (K0011) at the time were missing
                                         documentation, had incomplete documentation, or had documentation
                                         that was dated after the claim’s date of service. CMS has since revised
                                         and added to Medicare’s power wheelchair documentation
                                         requirements. For example, in 2006, CMS replaced the Certificate of
                                         Medical Necessity with the requirement that suppliers obtain the

                                              40 Ibid. All options and accessories for power wheelchairs are billed as separate items.
                                              41 Ibid.
                                            42 42 CFR § 424.57(c)(12). Proof of delivery is required by one of the 26 application
                                         certification standards that every Medicare DMEPOS supplier must meet to obtain and
                                         retain its billing privileges.
                                           43 Department of Health and Human Services (HHS) OIG, A Comparison of Prices for
                                         Power Wheelchairs in the Medicare Program, OEI-03-03-00460, April 2004; HHS OIG,
                                         Medicare Payments for Power Wheelchairs, OEI-03-02-00600, April 2004; HHS OIG, A
                                         Comparison of Medicare Program and Consumer Internet Prices for Power Wheelchairs,
                                         OEI-04-07-00160, October 2007.



   OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   7
   I N T R O D                  U C T                I O N



                                      prescription and supporting documentation from the prescribing
                                      physician. 44
                                      Office of Inspector General Power Wheelchair Evaluation Series
                                      OIG is conducting a series of evaluations of Medicare’s payments for
                                      power wheelchairs supplied to Medicare beneficiaries in the first half of
                                      2007. In addition to issuing this report, OIG issued separate reports on
                                      suppliers’ costs to purchase power wheelchairs and the services that
                                      suppliers performed in conjunction with providing the chairs, suppliers’
                                      costs to purchase power wheelchair batteries, and miscoded power
                                      wheelchair claims. 45 OIG also plans to issue a report on the
                                      appropriateness (e.g., the medical necessity) of power wheelchair claims.
                                      In addition to determining whether beneficiary medical records
                                      supported the medical necessity of the power wheelchair, OIG will
                                      determine whether documentation from the suppliers and prescribing
                                      physicians was consistent.


                                      METHODOLOGY
                                      Scope
                                      This evaluation focused on standard and complex rehabilitation power
                                      wheelchairs supplied to Medicare beneficiaries in the first half of 2007.
                                      We reviewed documentation for a random sample of 375 standard and
                                      complex rehabilitation power wheelchair claims to determine the extent
                                      to which the claims met documentation requirements from the LCD for
                                      Power Mobility Devices, as well as the proof-of-delivery requirement
                                      from Medicare’s supplier standards.

                                      We did not perform a medical record review to determine whether the
                                      supporting documentation or written report of the specialty evaluation
                                      submitted by suppliers supported the medical necessity of the power
                                      wheelchairs. In addition, we did not determine whether notes from the
                                      beneficiary examinations indicated that mobility examinations were the

                                           44 Prior to 2005, suppliers were required to submit a Certificate of Medical Necessity
                                      with power wheelchair claims. The Certificate of Medical Necessity collected information
                                      relating to the equipment ordered from the supplier and information on the beneficiary’s
                                      medical condition from the prescribing physician. CMS’s Medicare Learning Network,
                                      Medicare Coverage of Power Mobility Devices: Power Wheelchairs and Power Operated
                                      Vehicles, April 2006.
                                           45 HHS OIG,
                                                     Power Wheelchairs in the Medicare Program: Supplier Acquisition Costs
                                      and Services, OEI-04-07-00400, August 2009; Supplier Acquisition Costs for Power
                                      Wheelchair Batteries in the Medicare Program (in progress); and Miscoded Claims for
                                      Power Wheelchairs in the Medicare Program, OEI-04-07-00403, July 2009.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   8
I N T R O D          U C T                I O N




                                        reason for the visits. Finally, we did not determine whether specialty
                                        evaluations were performed by medical professionals with experience in
                                        complex rehabilitation power wheelchair evaluations. Appendix A
                                        distinguishes between the requirements that we reviewed and those
                                        that we did not review.
                                        Sample Selection
                                        Our population consisted of new, nonrental power wheelchair claims
                                        from CMS’s National Claims History DME Standard Analytical File
                                        with dates of service during the first half of 2007. 46 We removed claims
                                        associated with suppliers that were inactive or whose billing privileges
                                        had been revoked and claims associated with suppliers or prescribing
                                        physicians that were under OIG investigation. 47, 48 After removing
                                        these claims, the population from which we sampled included 93
                                        percent of standard and 91 percent of complex rehabilitation power
                                        wheelchair claims. 49 We grouped the resulting population into three
                                        strata:

                                          1. standard power wheelchair claims submitted by low-volume
                                             suppliers (those that submitted fewer than 10 standard power
                                             wheelchair claims in the first half of 2007), 50




                                           46 The final date to submit claims for power wheelchairs that were provided during the
                                        first half of 2007 was December 31, 2008. We analyzed claims CMS processed as of June
                                        30, 2007. Suppliers had submitted 79 percent of claims for power wheelchairs that were
                                        provided during the first half of 2007 at the time we selected our sample.
                                             47 We removed claims according to the suppliers’ status at the time that we selected the
                                        sample.
                                             48 Pursuant to 42 CFR § 424.520(a), to maintain Medicare billing privileges after initial
                                        enrollment, suppliers must comply with Medicare regulations and relevant Federal and
                                        State requirements. Pursuant to 42 CFR § 424.535, Medicare may revoke a supplier’s
                                        billing privileges because of a felony, noncompliance with enrollment requirements, etc.
                                        Pursuant to 42 CFR § 424.540, Medicare also may deactivate a supplier’s billing privileges
                                        when the supplier does not submit a claim for a full year or when the supplier fails to report
                                        a change to the information provided on the enrollment application.
                                          49 We removed 3,430 standard and 301 complex rehabilitation power wheelchair claims
                                        because of the suppliers’ Medicare enrollment status or ongoing investigations. After
                                        removing these, our population consisted of 43,133 standard and 3,001 complex
                                        rehabilitation power wheelchair claims.
                                             50 We divided the standard power wheelchair population by supplier volume based on the
                                        distribution of suppliers and claims. Twenty-five percent of suppliers received Medicare
                                        reimbursement for 10 or more standard power wheelchair claims during the first half of
                                        2007, and these claims accounted for 83 percent of all standard power wheelchair claims.



  OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   9
I N T R O D             U C T                I O N




                                        2. standard power wheelchair claims submitted by high-volume
                                           suppliers (those that submitted 10 or more standard power
                                           wheelchair claims in the first half of 2007), and

                                        3. complex rehabilitation power wheelchair claims.

                                      We sampled 375 total claims by selecting simple random samples of
                                      125 claims from each stratum. 51 Appendix B provides the number of
                                      claims, amount of Medicare expenditures, and number of suppliers for
                                      the population and sample, by stratum.
                                      Data Collection
                                      We asked suppliers to submit the following documents to support
                                      their power wheelchair claims: prescription, supporting
                                      documentation, specialty evaluation report (for complex rehabilitation
                                      chairs only), detailed product description, home assessment report,
                                      and proof of delivery. We also requested documentation identifying
                                      the dates the supplier received the prescription, supporting
                                      documentation, and the detailed product description from the
                                      prescribing physician.

                                      Before mailing the documentation requests, we asked representatives
                                      of three power wheelchair suppliers to review the request for clarity
                                      and familiarity of language. We made changes to the request based
                                      on their feedback.

                                      We obtained suppliers’ addresses from the National Supplier
                                      Clearinghouse data file. We mailed the documentation requests to
                                      the power wheelchair suppliers in our sample. We mailed up to three
                                      requests and telephoned nonresponding suppliers to ensure they had
                                      received the requests. We did not receive responses from suppliers of
                                      11 claims. 52 Of these, the supplier of one claim did not respond,
                                      although we were able to verify the supplier’s receipt of our request.
                                      We considered this claim as lacking documentation and included it in
                                      our analysis. We excluded the remaining 10 claims from our sample
                                      because we could not contact the suppliers or verify that they received
                                      our request. Therefore, we used a total of 365 claims in our analysis,
                                      for a response rate of 97 percent.



                                           51 All evaluations in the current OIG power wheelchair evaluation series use this sample.
                                           52 We referred suppliers that did not respond to our request to CMS and shared this
                                      information with OIG’s Office of Investigations.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   10
I N T R O D          U C T                I O N




                                        Data Analysis
                                        We determined whether suppliers submitted the requested
                                        documentation for the 365 claims. We reviewed the documentation to
                                        determine the extent to which they met Medicare documentation
                                        requirements.
                                        Prescription. We identified all claims for which the suppliers submitted
                                        prescriptions. For those that did, we determined whether the
                                        prescriptions included all seven required elements: beneficiary name,
                                        beneficiary examination date, diagnoses and conditions that support the
                                        claim, item description, expected length of time the beneficiary will need
                                        the chair, prescribing physician signature, and prescription date.
                                        We determined whether suppliers submitted documentation of the dates
                                        they received the prescriptions from the prescribing physicians. For
                                        claims that had these dates, we determined whether the suppliers
                                        received the prescriptions within 45 days after the beneficiary
                                        examinations. To make that determination, we compared the dates the
                                        suppliers received the prescriptions with the dates of the beneficiaries’
                                        examinations (a required element on the prescription). We compared
                                        the dates the suppliers received prescriptions with the claims’ dates of
                                        service to determine whether the suppliers received the prescriptions
                                        before the chairs were delivered.
                                        Supporting documentation. We identified all claims for which suppliers
                                        submitted supporting documentation from the beneficiaries’ medical
                                        records. We did not count physician-completed forms or letters of
                                        attestation as supporting documentation because Medicare’s LCD states
                                        that these do not substitute for the beneficiaries’ medical records.

                                        We determined whether suppliers submitted documentation of the date
                                        they received the supporting documentation from the prescribing
                                        physicians. For claims that had these dates, we determined whether
                                        the suppliers received the supporting documentation within 45 days
                                        after the beneficiary examinations using the same approach as for the
                                        prescriptions.
                                        Specialty evaluation report. We identified complex rehabilitation power
                                        wheelchair claims for which the suppliers submitted specialty
                                        evaluation reports.
                                        Detailed product description. We identified all claims for which the
                                        suppliers submitted detailed product descriptions. We determined
                                        whether the detailed product description listed the specific power


  OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   11
  I N T R O D                  U C T                I O N




                                      wheelchair base and all options and accessories for which the supplier
                                      billed Medicare. For each item the supplier billed, we determined
                                      whether the detailed product description included a procedure code,
                                      description, Medicare fee schedule amount, and supplier charge.

                                      We determined whether the prescribing physician approved the detailed
                                      product description by signing and dating it before the power
                                      wheelchair was delivered to the beneficiary. We also determined
                                      whether suppliers submitted documentation of the dates they received
                                      the detailed product descriptions from the prescribing physicians.
                                      Home assessment report. We identified all claims for which the suppliers
                                      submitted home assessment reports. We determined whether the home
                                      assessment was performed before or during the chair’s delivery. We
                                      also determined whether the home assessment report addressed the
                                      physical layout of the beneficiary’s home.
                                      Proof of delivery. We identified all claims for which the suppliers
                                      submitted proof of delivery.

                                      We identified all claims that did not meet one or more of the
                                      documentation requirements that we reviewed. We also distinguished
                                      between “document not submitted” errors and “incomplete document”
                                      errors. We considered a document to be incomplete if it did not meet all
                                      Medicare requirements (for example, if it was missing a required piece
                                      of information or was not received within the required timeframe). We
                                      projected error rates for these claims and compared the error rates by
                                      standard versus complex rehabilitation power wheelchairs and, for
                                      standard power wheelchairs, by supplier volume. 53
                                      For claims that had errors, we calculated the expenditures (improper
                                      payments) using Medicare-allowed amounts from the National Claims
                                      History data.
                                      Limitations
                                      We did not review claims’ compliance with all the requirements from
                                      Medicare’s LCD for Power Mobility Devices. For example, we did not
                                      determine whether the supporting documentation or written report of
                                      the specialty evaluation supported the medical necessity of the chair.
                                      Therefore, our results may underestimate the documentation-related
                                      error rate.

                                        53 We used SAS and SUDAAN survey data analysis software to project our sample
                                      results nationally.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   12
I N T R O D           U C T                I O N




                                       Standards
                                       This study was conducted in accordance with the “Quality Standards for
                                       Inspections” approved by the Council of the Inspectors General on
                                       Integrity and Efficiency.




 OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   13
    F I N D I N G S




          Three out of five claims for standard and                           Sixty percent of claims for standard
      complex rehabilitation power wheelchairs did                            and complex rehabilitation power
                                                                              wheelchairs that Medicare
    not meet Medicare documentation requirements
                                                                              beneficiaries received during the
                        during the first half of 2007
                                                                              first half of 2007 did not meet one
                                          or more documentation requirement. 54 Medicare requires suppliers to
                                          obtain a variety of documents that support the beneficiary’s need for,
                                          and the appropriateness of, the provided power wheelchairs. Suppliers
                                          must also have proof of the power wheelchair’s delivery. Claims that
                                          did not meet all documentation requirements accounted for $112 million
                                          in improper Medicare payments, out of $189 million total allowed by
                                          Medicare during the 6-month period. Beneficiaries were responsible for
                                          paying $22 million of this amount.
                                          Standard and complex rehabilitation power wheelchair claims were
                                          more likely to meet some documentation requirements than others.
                                          Two out of five power wheelchair claims had multiple errors. In
                                          addition, suppliers submitted incomplete documents almost three times
                                          as often as they failed to submit required documents. The specialty
                                          evaluation report was one of the documents most often not submitted by
                                          complex rehabilitation power wheelchair suppliers.

                                          Appendix C presents error rates for requirements related to the
                                          documents’ contents and the time frames within which the supplier
                                          should create or receive the documents (i.e., incomplete documentation
                                          errors). Appendix D provides the confidence intervals for estimates of
                                          all documentation error rates and associated improper payments.
                                          Standard and complex rehabilitation power wheelchair claims were more
                                          likely to meet some documentation requirements than others
                                          Power wheelchair claims varied in the extent to which they did not meet
                                          Medicare requirements for the prescription, supporting documentation,
                                          specialty evaluation report, detailed product description, home
                                          assessment report, and proof of delivery. Error rates ranged from
                                          1 percent of claims for which the suppliers did not submit proof of
                                          delivery to 40 percent of claims for which the supporting documentation
                                          and detailed product descriptions were not submitted or were
                                          incomplete.


                                               54 Standard power wheelchairs accounted for approximately three-quarters of Medicare

                                          power wheelchair expenditures in the first half of 2007. Complex rehabilitation power
                                          wheelchairs accounted for 6 percent.



    OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   14
F   I N D I N G                 S




                                      Table 1 presents the error rates for each documentation requirement
                                      and in total.

                                         Table 1: Medicare Documentation Error Rates for Standard and
                                         Complex Rehabilitation Power Wheelchair Claims, First Half of 2007
                                         Documentation Requirement                                                                                                     Error Rate
                                         Supporting documentation                                                                                                           40%
                                         Detailed product description                                                                                                       40%
                                         Prescription                                                                                                                       32%
                                         Specialty evaluation report*                                                                                                        2%
                                         Home assessment report                                                                                                             18%
                                         Proof of delivery                                                                                                                   1%
                                         (Overlapping errors)                                                                                                              (73%)
                                              Total                                                                                                                         60%
                                         * Requirement does not apply to standard power wheelchairs. Thirty percent of complex rehabilitation
                                         power wheelchair claims did not meet the specialty evaluation report requirement.
                                         Note: Overlapping errors are subtracted to obtain the total.
                                         Source: OIG analysis of supplier documentation, 2009.




                                      Supporting documentation. Forty percent of power wheelchair claims did
                                      not have complete supporting documentation, such as physician notes or
                                      test results, from the beneficiaries’ medical records. Instead of a
                                      Certificate of Medical Necessity, power wheelchair suppliers must
                                      obtain documentation from the beneficiary’s medical record that clearly
                                      supports the medical necessity for the power wheelchair from the
                                      prescribing physician. 55 Claims that did not have complete supporting
                                      documentation resulted in $75 million in improper payments by
                                      Medicare and its beneficiaries.

                                      Although suppliers of only 2 percent of claims did not submit any
                                      supporting documentation, suppliers of another 38 percent of claims
                                      submitted supporting documentation that did not meet all of Medicare’s
                                      requirements. For example, the supporting documentation for
                                      20 percent of claims did not include the physician’s notes from the
                                      beneficiaries’ medical records. Instead, these claims were improperly
                                      supported by either physician-completed forms or letters of attestation.

                                      In addition, suppliers did not always meet the 45-day requirement.
                                      Specifically, suppliers of 9 percent of claims did not receive the

                                           55 We did not conduct a medical record review to determine whether this documentation

                                      supported the medical necessity of the power wheelchairs. OIG plans to issue a separate
                                      report on the appropriateness (e.g., the medical necessity) of power wheelchair claims.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S            15
F    I N D I N G                S




                                          documentation within 45 days after the beneficiary’s examination and,
                                          for 8 percent of claims, suppliers did not receive the documentation
                                          before the delivery date. Other claims did not include the date the
                                          supplier received the supporting documentation. For those that did,
                                          suppliers received the supporting documentation within a median of
                                          7 days after the beneficiary’s examination. However, the maximum
                                          amount of time was 405 days, approximately 14 months after the
                                          examination.

                                          Detailed product description. Forty percent of power wheelchair claims
                                          did not have a complete detailed product description. The detailed
                                          product description is the supplier’s recommendation of the specific
                                          power wheelchair and accessories that are appropriate for the
                                          beneficiary. The prescribing physician must approve the supplier’s
                                          recommendation before the chair is provided. Claims with missing or
                                          incomplete detailed product descriptions resulted in $74 million in
                                          improper payments by Medicare and its beneficiaries.

                                          Although suppliers of 14 percent of claims did not submit a detailed
                                          product description, suppliers of another 26 percent of claims submitted
                                          detailed product descriptions that did not meet all of Medicare’s
                                          requirements. Without a complete detailed product description,
                                          Medicare claim reviewers cannot determine whether the physician
                                          approved the supplier’s suggested power wheelchair and accessories
                                          before the beneficiary received his or her power wheelchair.

                                          For example, some detailed product descriptions did not include all
                                          items for which the supplier billed Medicare. 56 In addition, detailed
                                          product descriptions did not always include the date the supplier
                                          received the document from the prescribing physician, and others were
                                          received by the supplier after the chair’s delivery. Finally, detailed
                                          product descriptions were not always signed and dated by the
                                          prescribing physician.

                                          Prescription. Thirty-two percent of power wheelchair claims did not
                                          have a complete prescription. These claims resulted in $60 million in
                                          improper payments by Medicare and its beneficiaries.
                                          Although suppliers of all but 1 percent of claims submitted the power
                                          wheelchair prescription, suppliers of 31 percent of claims submitted


                                           56 For each billed item, the supplier must include the procedure code, description,
                                          Medicare fee schedule amount, and supplier’s charge.



    OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   16
    F   I N D I N G                     S



                                      prescriptions that did not meet all of Medicare requirements. For
                                      example, 16 percent of prescriptions did not include all seven required
                                      elements, such as the date of the beneficiary’s examination and the
                                      length of time the beneficiary needed the power wheelchair.

                                      In addition, suppliers did not always meet the 45-day requirement.
                                      Specifically, suppliers of 6 percent of claims did not receive the
                                      prescription within 45 days after the beneficiary’s examination and, for
                                      another 6 percent of claims, suppliers did not receive the prescription
                                      before the delivery date. Other claims did not include the date the
                                      supplier received the prescription. For those that did, suppliers
                                      received the prescription within a median of 7 days after the
                                      beneficiary’s examination. However, the maximum amount of time was
                                      393 days, approximately 13 months after the examination.

                                      Specialty evaluation report. Beneficiaries who receive complex
                                      rehabilitation power wheelchairs must receive a specialty evaluation by
                                      a medical professional with experience in complex rehabilitation power
                                      wheelchair evaluations. 57 Complex rehabilitation power wheelchair
                                      claims that were not supported by a written report of the specialty
                                      evaluation represented 2 percent of all standard and complex
                                      rehabilitation power wheelchair claims. 58 However, these claims
                                      represented 30 percent of complex rehabilitation power wheelchair
                                      claims. These claims resulted in $5 million in improper payments by
                                      Medicare and its beneficiaries.

                                      Home assessment report. Eighteen percent of power wheelchair claims
                                      did not have a complete home assessment report. The supplier’s home
                                      assessment verifies that the beneficiary can adequately maneuver the
                                      power wheelchair in his or her home. Claims with missing or
                                      incomplete home assessment reports resulted in $34 million in improper
                                      payments by Medicare and its beneficiaries.

                                      Although suppliers of 10 percent of claims did not submit a home
                                      assessment report, suppliers of another 8 percent of claims submitted
                                      home assessment reports that did not meet Medicare’s requirements.


                                           57 The specialty evaluation requirement does not apply to standard power wheelchairs.
                                           58 We did not conduct a medical record review to determine whether the specialty
                                      evaluation report supported the medical necessity of the complex rehabilitation power
                                      wheelchairs and their options and accessories. OIG plans to issue a separate report on the
                                      appropriateness (e.g., the medical necessity) of claims for power wheelchairs and certain
                                      options and accessories supplied with them.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   17
  F   I N D I N G                   S



                                      Specifically, suppliers of 3 percent of claims did not evaluate the
                                      physical layout of the beneficiary’s home in their reports. These
                                      suppliers usually submitted a form certifying that a home assessment
                                      was conducted but provided little to no information about the home’s
                                      dimensions, surfaces, or stairways. In addition, suppliers sometimes
                                      conducted the home assessment after the delivery of the chair.

                                      Proof of delivery. Suppliers of 1 percent of power wheelchair claims did
                                      not submit proof of the chair’s delivery to the beneficiary. 59
                                      Two out of five claims had multiple documentation errors
                                      Thirty-eight percent of power wheelchair claims had multiple
                                      documentation errors. Suppliers of claims with multiple errors did not
                                      submit required documents and/or submitted incomplete documents.
                                      Incomplete documents did not have all required information or were not
                                      received within the required timeframe. Claims with multiple
                                      documentation errors accounted for $71 million in improper Medicare
                                      payments.

                                      Table 2 presents the percentage of claims and improper payments that
                                      Medicare allowed, by the number of documents per claim that did not
                                      meet Medicare requirements.

                                        Table 2: Number of Medicare Documentation Errors per Power
                                        Wheelchair Claim, First Half of 2007

                                        Number of Documents per
                                        Claim That Did Not Meet                                                                                      Payments Allowed
                                        Medicare Requirements                                 Claims (Percentage)*                                           (Millions)
                                        One                                                                                 22%                                         $41
                                        Two                                                                                 13%                                         $25
                                        Three                                                                               16%                                         $30
                                        More than three                                                                       8%                                        $16
                                             Total                                                                          60%                                        $112
                                      * Column does not sum because of rounding.
                                      Source: OIG analysis of supplier documentation, 2009.



                                      Suppliers submitted incomplete documents almost three times as often as
                                      they did not submit required documents
                                      Suppliers of 20 percent of standard and complex rehabilitation power
                                      wheelchair claims did not submit one or more documents required by


                                        59 We do not report improper payments by Medicare and its beneficiaries for claims that
                                      did not have proof of delivery because the confidence interval contained zero.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S          18
  F   I N D I N G                   S




                                      Medicare. Suppliers of 56 percent of claims submitted one or more
                                      incomplete documents. Sixteen percent of claims had both types of
                                      error: suppliers failed to submit at least one document and submitted
                                      at least one incomplete document.

                                      Table 3 presents the error rates for claims for which the supplier did not
                                      submit all required documents and those for which the supplier submitted
                                      an incomplete document.

                                         Table 3: Not Submitted and Incomplete Medicare Documentation Error
                                         Rates for Power Wheelchair Claims, First Half of 2007

                                         Type of Documentation Error                                                                                                   Error Rate
                                         Supplier did not submit all required documents                                                                                     20%
                                         Supplier submitted at least one incomplete document                                                                                56%
                                         (Overlapping errors: supplier did not submit all required
                                         documents and submitted at least one incomplete document )                                                                        (16%)
                                              Total                                                                                                                         60%
                                         Note: Overlapping errors are subtracted to obtain the total.
                                         Source: OIG analysis of supplier documentation, 2009.



                                      The specialty evaluation report was one of the documents most often not
                                      submitted by complex rehabilitation power wheelchair suppliers.
                                      Beneficiaries who require complex rehabilitation power wheelchairs
                                      typically have mobility limitations that result from a neurological
                                      condition, muscle disease, or skeletal deformity; therefore, Medicare
                                      requires that these beneficiaries receive a specialty evaluation, in
                                      addition to the physician’s initial examination. However, suppliers of
                                      30 percent of complex rehabilitation power wheelchair claims did not
                                      submit a written report of the beneficiary’s specialty evaluation. The
                                      specialty evaluation report and detailed product description were the
                                      documents suppliers of complex rehabilitation power wheelchairs most
                                      often failed to submit. 60




                                           60 Suppliers of 22 percent of complex rehabilitation power wheelchair claims did not
                                      submit a detailed product description. The differences between these error rates and other
                                      complex rehabilitation power wheelchair error rates are significant at the 95-percent
                                      confidence level.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S        19
F   I N D I N G          S




                                                                              Complex rehabilitation power
      Medicare documentation error rates varied by
                                                                              wheelchair claims had a higher
       power wheelchair type and supplier volume                              documentation error rate than
                      during the first half of 2007                           standard power wheelchair claims
                                                                              during the first half of 2007. For
                                           standard power wheelchairs, claims submitted by low-volume suppliers
                                           had a higher error rate than those from high-volume suppliers.
                                           Complex rehabilitation power wheelchair claims had a higher
                                           documentation error rate than standard power wheelchair claims

                                           Complex rehabilitation power wheelchair claims met all documentation
                                           requirements less frequently than standard power wheelchair claims.61
                                           Ninety-three percent of complex rehabilitation power wheelchair claims
                                           had multiple errors, while 58 percent of standard power wheelchair
                                           claims had multiple errors.

                                           Table 4 presents the error rates associated with each documentation
                                           requirement for standard and complex rehabilitation wheelchair claims.


                                             Table 4: Comparison of Medicare Documentation Error Rates for Standard
                                             and Complex Rehabilitation Power Wheelchair Claims, First Half of 2007
                                                                                                                                                                Error Rate
                                                                                                                                      Standard Power                        Complex Rehabilitation
                                             Documentation Requirement                                                                   Wheelchairs                          Power Wheelchairs
                                             Supporting documentation                                                                                      39%                                61%
                                             Detailed product description                                                                                  38%                                61%
                                             Prescription                                                                                                  30%                                58%
                                             Specialty evaluation report*                                                                                    NA                               30%
                                             Home assessment report                                                                                        18%                                28%
                                             Proof of delivery                                                                                               1%                                1%
                                             (Overlapping errors)                                                                                       (68%)                               (146%)
                                                  Total                                                                                                    58%                                93%
                                             * Requirement does not apply to standard power wheelchairs.
                                             Note: Overlapping errors are subtracted to obtain the total.
                                             Source: OIG analysis of supplier documentation, 2009.




                                                61 Difference is statistically significant at the 95-percent confidence level.




     OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S              20
       F   I N D I N G                        S



                                      Complex rehabilitation power wheelchair claims had higher
                                      documentation error rates for all requirements, except proof of
                                      delivery. 62, 63 In the first half of 2007, suppliers submitted over
                                      13 times more standard than complex rehabilitation power wheelchair
                                      claims. The greater number of standard power wheelchair claims
                                      strongly influenced the combined error rates and resulted in higher
                                      improper payments for standard power wheelchairs than for complex
                                      rehabilitation power wheelchairs. Documentation errors for standard
                                      power wheelchairs resulted in $97 million in improper payments, while
                                      errors for complex rehabilitation power wheelchair claims resulted in
                                      $15 million in improper payments.
                                      Standard power wheelchair claims submitted by low-volume suppliers had a
                                      higher documentation error rate than those from high-volume suppliers
                                      Standard power wheelchair claims submitted by low-volume suppliers
                                      met all documentation requirements less frequently than those
                                      submitted by high-volume suppliers. 64 Fifty-five percent of claims
                                      submitted by suppliers that provided 10 or more standard power
                                      wheelchairs in the first half of 2007 (high-volume suppliers) had
                                      multiple errors. Seventy-two percent of claims submitted by suppliers
                                      that provided fewer than 10 standard power wheelchairs (low-volume
                                      suppliers) had multiple errors.

                                      Table 5 presents the error rates associated with each documentation
                                      requirement for high- and low-volume suppliers.




                                           62 Differences are statistically significant at the 95-percent confidence level.
                                           63 Complex rehabilitation power wheelchair claims are subject to an additional
                                      requirement. The specialty evaluation report requirement does not apply to standard
                                      power wheelchair claims.
                                           64 Difference is statistically significant at the 95-percent confidence level.




OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   21
F   I N D I N G                 S




                                    Table 5: Comparison of Medicare Documentation Error Rates for
                                    Standard Power Wheelchair Claims, by Supplier Volume, First Half of 2007
                                                                                                                       Error Rate
                                    Documentation Requirement                                          High-Volume Suppliers*   Low-Volume Suppliers
                                    Supporting documentation                                                                              36%                           51%
                                    Detailed product description                                                                          36%                           48%
                                    Prescription                                                                                          29%                           37%
                                    Home assessment report                                                                                17%                           18%
                                    Proof of delivery                                                                                       1%                           3%
                                    (Overlapping errors)                                                                               (65%)                           (85%)
                                         Total                                                                                            55%                           72%
                                    * Column does not sum because of rounding.
                                    Note: Overlapping errors are subtracted to obtain the total.
                                    Source: OIG analysis of supplier documentation, 2009.



                                      Because high-volume suppliers provide more standard power wheelchairs
                                      than low-volume suppliers, claims submitted by high-volume suppliers
                                      accounted for more improper payments for documentation errors than did
                                      claims submitted by low-volume suppliers. 65 Documentation errors for
                                      standard power wheelchairs resulted in $77 million in improper payments
                                      for claims submitted by high-volume suppliers and $20 million for claims
                                      submitted by low-volume suppliers.




                                        65 Eighty-three percent of standard power wheelchairs were supplied by high-volume
                                      suppliers in the first half of 2007.



OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S    22
   R E C O M M E N D A T I O N S

                                      Power wheelchairs provide mobility and independence for hundreds of
                                      thousands of Medicare beneficiaries. In 2005 and 2006, CMS revised
                                      power wheelchair documentation requirements in response to numerous
                                      instances of fraud and abuse and the growth in Medicare power
                                      wheelchair expenditures. Power wheelchair suppliers must maintain
                                      specific documentation to support beneficiaries’ need for the provided
                                      power wheelchairs. Medicare policy requires that suppliers and
                                      prescribing physicians coordinate to ensure that beneficiaries receive
                                      the most appropriate equipment to accommodate their mobility needs.

                                      We found that 60 percent of claims for standard and complex
                                      rehabilitation power wheelchairs that beneficiaries received in the first
                                      half of 2007 did not meet Medicare documentation requirements. These
                                      claims accounted for $112 million in improper Medicare payments, out
                                      of the $189 million total allowed by Medicare during the 6-month
                                      period. Beneficiaries were responsible for paying $22 million of this
                                      amount.

                                      Power wheelchair claims were more likely to meet some documentation
                                      requirements than others. Two out of five power wheelchair claims had
                                      multiple errors. In addition, suppliers submitted incomplete documents
                                      almost three times as often as they failed to submit required documents.
                                      The specialty evaluation report was one of the documents most often not
                                      submitted by complex rehabilitation power wheelchair suppliers.
                                      We found that complex rehabilitation power wheelchair claims had a
                                      higher documentation error rate than standard power wheelchair
                                      claims. Standard power wheelchair claims submitted by low-volume
                                      suppliers had a higher documentation error rate than those from
                                      high-volume suppliers.

                                      Based on these findings, we recommend that CMS:
                                      Improve compliance with Medicare’s power wheelchair
                                      documentation requirements
                                      CMS should consider the following methods for improving compliance:

                                                    Conduct additional reviews of power wheelchair claims. When
                                                     determining the additional claims to review, CMS should
                                                     consider that complex rehabilitation power wheelchair claims
                                                     had a higher documentation error rate than standard power
                                                     wheelchair claims. In addition, standard power wheelchair
                                                     claims submitted by low-volume suppliers had a higher
                                                     documentation error rate than those from high-volume suppliers.


OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   23
R    E C O        M M E N D A T                                 I O N               S




                                                        Recover overpayments from suppliers that do not meet
                                                         documentation requirements and consider further action as
                                                         appropriate. Suppliers are liable for overpayments when they do
                                                         not submit documentation to substantiate services billed to the
                                                         program. CMS should deny claims identified during
                                                         prepayment reviews that do not meet documentation
                                                         requirements and recover overpayments for claims identified
                                                         during postpayment reviews. CMS should also consider
                                                         investigating suppliers that do not meet documentation
                                                         requirements.

                                                        Increase education for suppliers and prescribing physicians about
                                                         documentation requirements. While suppliers are ultimately
                                                         responsible for claims they submit, Medicare requires that
                                                         suppliers obtain documents and receive approval from the
                                                         prescribing physicians. Therefore, CMS should consider
                                                         physicians’ awareness of power wheelchair documentation
                                                         requirements.
                                          Take appropriate action on sampled claims found to be in error
                                          We will forward detailed information on these claims to CMS in a
                                          separate transmittal.


                                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                          RESPONSE
                                          CMS concurred with both of our recommendations. CMS noted that it
                                          has multiple efforts underway or planned that align with each
                                          suggested method to improve compliance with Medicare’s power
                                          wheelchair documentation requirements. For example, CMS recently
                                          awarded a contract that will involve the review of power wheelchair
                                          claims submitted by certain suppliers. Additionally, CMS will instruct
                                          DME Medicare Administrative Contractors to determine whether
                                          required documentation is present, in addition to determining whether
                                          beneficiaries are receiving medically necessary power wheelchairs.
                                          Further, CMS stated that it will take appropriate action to recover
                                          overpayments from suppliers for claims that do not meet documentation
                                          and policy requirements or clinical criteria. CMS also stated that it
                                          continues to develop educational materials for suppliers and prescribing
                                          providers and expects to disseminate additional information on power
                                          wheelchair documentation requirements to both of these groups through
                                          open-door forums and calls. Finally, CMS will forward the sampled

    OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   24
R   E C O      M M E N D A T                                I O N               S




                                          claims we found to be in error to the appropriate contractors to identify
                                          and recover overpayments. We will forward information on these claims
                                          to CMS under separate cover.

                                          We did not make changes to the report based on CMS comments. The
                                          full text of CMS’s comments appears in Appendix E.




    OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   25
            A P P E N D I X ~ A




Medicare’s Power Wheelchair Documentation Requirements
Document             Description                                   Requirements
Prescription         Physician’s order for a power                  Supplier must maintain on file
                     wheelchair                                     The prescription must include:
                                                                       - beneficiary name
                                                                       - beneficiary examination date
                                                                       - diagnoses and conditions that support the claim
                                                                       - item description
                                                                       - expected length of time the beneficiary will need the chair
                                                                       - prescribing physician’s signature
                                                                       - prescription date
                                                                    45-day requirement
                                                                       - supplier must have documentation of the date the supplier received the prescription from the
                                                                          physician
                                                                       - prescription must be received by the supplier within 45 days after the beneficiary’s
                                                                          examination and before the chair’s delivery
Supporting           Documentation that will                        Supplier must maintain on file
documentation        include pertinent parts of the                 Must include beneficiary medical records, such as physician’s notes from the beneficiary’s
                     beneficiary’s medical record                    examination; forms and attestations are inadequate
                     that support the medical                       45-day requirement
                     necessity for the power
                                                                       - supplier must have documentation of the date the supplier received the supporting
                     wheelchair
                                                                          documentation from the physician
                                                                       - supporting documentation must be received by the supplier within 45 days after the
                                                                          beneficiary’s examination and before the chair’s delivery

                                                                   NOT INCLUDED IN REVIEW:
                                                                    Must support the medical necessity of the power wheelchair
                                                                    Notes from the beneficiary examination must indicate that the reason for the visit was a mobility
                                                                     examination
Specialty            Written report of the                              Supplier must maintain on file
evaluation           evaluation by physical or
report*              occupational therapist or                     NOT INCLUDED IN REVIEW:
                     physician justifying the need
                                                                    Must support the medical necessity of the power wheelchair and all options and accessories
                     for the power wheelchair and
                     all accessories                                Specialty evaluation must be performed by a medical professional with experience in complex
                                                                     rehabilitation power wheelchair evaluations
Detailed             Document showing items that                        Supplier must maintain on file
product              will be billed to Medicare                         Must include for all billed items (power wheelchair and any accessories or power options):
description          and/or beneficiary                                     - procedure code(s) of all billed items
                                                                            - item description(s)
                                                                            - Medicare fee schedule amount(s)
                                                                            - supplier charge(s)
                                                                         Supplier must have documentation of date the supplier received the detailed product description
                                                                          from physician
                                                                         Supplier must receive detailed product description before chair’s delivery
                                                                         Must include prescribing physician’s signature and date of physician’s signature
Home                 Written report documenting                         Supplier must maintain on file
assessment           the supplier’s assessment of                       Assessment must have occurred before or during the chair’s delivery
report               the beneficiary’s home                             Assessment must address the physical layout of the home
                     environment

Proof of             Documentation showing the                          Supplier must maintain on file
delivery             power wheelchair was
                     delivered to the beneficiary
* Applies only to complex rehabilitation power wheelchairs.
Source: Medicare Power Mobility Device Local Coverage Determination.


               OEI-04-07-00401     M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   26
           A P P E N D I X ~ B




Population and Sample Sizes by Stratum, First Half of 2007

                                                                                                      Population                                                                       Sample
Stratum         Definition                                                      Claims            Expenditures                    Suppliers              Claims              Expenditures          Suppliers
                 Standard power wheelchair claims
1                by low-volume suppliers                                           7,223             $28,949,132                          2,352                 125                    $499,152         124
                 Standard power wheelchair claims
2                by high-volume suppliers                                        35,910            $144,354,060                              716                125                    $502,989          94
                 All standard power wheelchair
1 and 2          claims                                                           43,133           $173,303,192                           3,068                 250               $1,002,141            218
                 Complex rehabilitation power
3                wheelchair claims*                                                3,001             $16,010,906                          1,064                 125                    $665,200         113

    Total                                                                        46,134            $189,314,098                        3,362**                  375               $1,667,341           325**
* Procedure codes K0835–K0864.
** Suppliers’ figures do not sum to totals because of overlap (some suppliers in our sample provided both standard and complex rehabilitation power wheelchairs).
Source: Office of Inspector General analysis of Medicare power wheelchair claims with dates of service from January 1 to June 30, 2007.




            OEI-04-07-00401       M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S              27
          A P P E N D I X ~ C




Incomplete Documentation Error Rates, First Half of 2007

Document                           Incomplete Documentation Error Description                                                                                                     Error Rate
Supporting                         Did not include physician’s notes from medical record                                                                                             20.4%
documentation
                                   No documentation of date supplier received supporting documentation                                                                                   9.9%
                                   Included documentation of the date the supplier received the supporting
                                   documentation, but the supplier did not receive the supporting documentation
                                   within 45 days after the beneficiary examination                                                                                                      9.1%
                                   Included documentation of the date the supplier received the supporting
                                   documentation, but the supplier did not receive the supporting documentation
                                   before the delivery date                                                                                                                              8.1%
                                   Overlapping errors                                                                                                                                (9.2%)
                                         Total incomplete documentation                                                                                                              38.3%
Detailed product                   Did not include all required information for all billed items                                                                                     17.1%
description
                                   No physician signature                                                                                                                                0.4%
                                   No date of physician signature                                                                                                                        0.8%
                                   No documentation of the date the supplier received the detailed product
                                   description from the physician                                                                                                                        8.4%
                                   Included documentation of the date the supplier received the detailed product
                                   description, but the supplier did not receive the detailed product description
                                   before the delivery date                                                                                                                              5.4%
                                   Overlapping errors                                                                                                                                (6.0%)
                                         Total incomplete documentation                                                                                                              26.1%
Prescription                       One or more required elements missing                                                                                                             15.9%
                                   No documentation of the date the supplier received the prescription                                                                                   9.1%
                                   Included documentation of the date the supplier received the prescription, but
                                   the supplier did not receive the prescription within 45 days after the beneficiary
                                   examination                                                                                                                                           5.5%
                                   Included documentation of the date the supplier received the prescription, but
                                   the supplier did not receive the prescription before the delivery date                                                                                5.9%
                                   Overlapping errors                                                                                                                                (5.6%)
                                         Total incomplete documentation                                                                                                              30.8%
Home assessment                    Home assessment was conducted after chair’s delivery                                                                                                  6.9%
report
                                   Home assessment report did not address the physical layout of the
                                   beneficiary’s home                                                                                                                                    2.5%
                                   Overlapping errors                                                                                                                                (1.0%)
                                         Total incomplete documentation                                                                                                                  8.4%
Note: Overlapping errors are subtracted to obtain the total.
Source: Office of Inspector General analysis of supplier documentation, 2009.




       OEI-04-07-00401       M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S     28
 AA APP PPP PEE       EN ND DI XI X C~ D
                       N D         I X               D




       Estimates and Confidence Intervals: Medicare Documentation Error Rates for Standard and
       Complex Rehabilitation Power Wheelchair Claims, First Half of 2007
                                                                                                                                                     95-Percent Confidence
       Estimate Description                                                      Sample Size                       Point Estimate                                  Interval
                                                                           All Power Wheelchairs
       Supporting documentation                                                                   365                             40.3%                                 33.6%–47.3%
       Detailed product description                                                              365                              39.7%                                 33.1%–46.7%
       Prescription                                                                              365                              32.1%                                 26.0%–38.9%
       Specialty evaluation report**                                                             365                                 2.0%                                   1.5%–2.6%
       Home assessment report                                                                     365                             18.2%                                 13.4%–24.3%
       Proof of delivery                                                                          365                                1.2%                                   0.4%–3.7%
       Overlapping errors                                                                        365                            (73.1%)                              (58.8%–87.4%)
          Total errors                                                                            365                             60.4%                                 53.2%–67.2%
                                                         Standard Power Wheelchairs: All Suppliers
       Supporting documentation                                                                   241                             38.8%                                 31.7%–46.3%
       Detailed product description                                                              241                              38.2%                                 31.2%–45.8%
       Prescription                                                                              241                              30.2%                                 23.8%–37.6%
       Home assessment report                                                                     241                             17.5%                                 12.5%–24.1%
       Proof of delivery                                                                          241                                1.2%                                   0.4%–4.0%
       Overlapping errors                                                                        241                            (67.8%)                              (52.6%–83.2%)
          Total errors                                                                            241                             58.1%                                 50.4%–65.4%
                                                         Complex Rehabilitation Power Wheelchairs
       Supporting documentation                                                                   124                             61.3%                                 52.5%–69.4%
       Detailed product description                                                              124                              60.5%                                 51.7%–68.6%
       Prescription                                                                              124                              58.1%                                 49.3%–66.4%
       Specialty evaluation report**                                                             124                              29.8%                                 22.5%–38.4%
       Home assessment report                                                                     124                             28.2%                                 21.1%–36.7%
       Proof of delivery                                                                          124                                0.8%                                   0.1%–5.4%
       Overlapping errors                                                                         124                        (146.0%)                           (124.2%–167.8%)
          Total errors                                                                            124                             92.7%                                 86.7%–96.2%
       ** Requirement does not apply to standard power wheelchairs.
       Note: Overlapping errors are subtracted to obtain the total.
       Source: Office of Inspector General (OIG) analysis of supplier documentation, 2009.




       OEI-04-07-00401       M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S         29
A    P    P E N D                I X               D




Estimates and Confidence Intervals: Medicare Documentation Error Rates for Low- and
High-Volume Standard Power Wheelchair Claims, First Half of 2007
                                                                                                                                               95-Percent Confidence
Estimate Description                                                       Sample Size                       Point Estimate                                  Interval
                                         Standard Power Wheelchairs: Low-Volume Suppliers
Supporting documentation                                                                    120                             50.8%                                 41.9%–59.7%
Detailed product description                                                               120                              47.5%                                 38.7%–56.5%
Prescription                                                                               120                              36.7%                                 28.5%–45.7%
Home assessment report                                                                      120                             18.3%                                 12.4%–26.3%
Proof of delivery                                                                           120                                3.3%                                   1.2%–8.6%
Overlapping errors                                                                          120                           (85.0%)                            (64.3%–105.7%)
    Total errors                                                                            120                             71.7%                                 62.9%–79.0%
                                         Standard Power Wheelchairs: High-Volume Suppliers
Supporting documentation                                                                    121                             36.4%                                 28.2%–45.4%
Detailed product description                                                               121                              36.4%                                 28.2%–45.4%
Prescription                                                                               121                              28.9%                                 21.5%–37.7%
Home assessment report                                                                      121                             17.4%                                 11.5%–25.3%
Proof of delivery                                                                           121                                0.8%                                   0.1%–5.8%
Overlapping errors                                                                         121                            (64.5%)                              (46.5%–82.4%)
    Total errors                                                                            121                             55.4%                                 46.3%–64.1%
Note: Overlapping errors are subtracted to obtain the total.
Source: OIG analysis of supplier documentation, 2009.




OEI-04-07-00401        M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S         30
A    P    P E N D               I X               D




Estimates and Confidence Intervals: Improper Payments for Power Wheelchair Claims With
Documentation Errors, First Half of 2007

Estimate Description                                                   Sample Size                    Point Estimate                    95-Percent Confidence Interval
                                                                        All Power Wheelchairs
Supporting documentation                                                                365                $74,702,894                              $62,297,706–$87,108,083
Detailed product description                                                            365                $73,530,908                              $61,136,655–$85,925,162
Prescription                                                                            365                $59,769,646                              $48,047,256–$71,492,036
Specialty evaluation report**                                                           365                  $4,695,238                                 $3,422,965–$5,967,511
Home assessment report                                                                  365                $33,971,678                              $24,166,707–$43,776,648
Overlapping improper payments                                                           365           ($136,894,371)                         ($110,972,878–$162,815,864)
Total improper payments*                                                                365              $111,962,318                             $99,272,522–$124,652,115
Beneficiary’s copayment                                                                 365                $21,742,270                              $19,194,534–$24,290,011
                                                      Complex Rehabilitation Power Wheelchairs
Total improper payments                                                                 124                $14,704,007                              $13,883,853–$15,524,161
                                                      Standard Power Wheelchairs: All Suppliers
Total improper payments                                                                 241                $97,258,311                            $84,572,801–$109,943,821
                                             Standard Power Wheelchairs: Low-Volume Suppliers
Total improper payments                                                                 120                $19,803,457                              $17,550,837–$22,056,078
                                            Standard Power Wheelchairs: High-Volume Suppliers
Total improper payments                                                                 121                $77,454,854                              $64,905,544–$90,004,163
* We do not report improper payments by Medicare and its beneficiaries for claims that did not have proof of delivery because the confidence
intervals contain zero. Therefore, improper payments do not add to the total.
** Requirement does not apply to standard power wheelchairs.
Note: Overlapping errors are subtracted to obtain the total.
Source: OIG analysis of supplier documentation, 2009.




OEI-04-07-00401       M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   31
     A    P    P E N D             I X               D




 Estimates and Confidence Intervals: Number of Medicare Documentation Errors per Power Wheelchair
 Claim, First Half of 2007
                                                                                                                             Sample                       Point                 95-Percent Confidence
 Estimate Description                                                                                                          Size                    Estimate                               Interval
 Percentage of claims that met all Medicare documentation requirements                                                      365                             39.6%                        32.8%–46.8%
 Percentage of claims with one document that did not meet all Medicare
 documentation requirements                                                                                                 365                             22.2%                        16.9%–28.5%
 Percentage of claims with two documents that did not meet all Medicare
 documentation requirements                                                                                                 365                             13.4%                         9.3%–18.8%
 Percentage of claims with three documents that did not meet all Medicare
 documentation requirements                                                                                                 365                             16.4%                        11.8%–22.3%
 Percentage of claims with more than three documents that did not meet
 all Medicare documentation requirements                                                                                    365                               8.5%                        5.5%–12.9%
 Percentage of claims with multiple Medicare documentation errors                                                           365                             38.2%                        31.7%–45.2%
 Improper payments for claims with one document that did not meet all
 Medicare documentation requirements                                                                                        365                  $40,682,641                 $30,244,946–$51,120,336
 Improper payments for claims with two documents that did not meet all
 Medicare documentation requirements                                                                                        365                  $24,873,263                 $16,351,987–$33,394,540
 Improper payments for claims with three documents that did not meet all
 Medicare documentation requirements                                                                                        365                  $30,048,940                 $20,676,710–$39,421,170
 Improper payments for claims with more than three documents that did
 not meet all Medicare documentation requirements                                                                           365                  $16,357,474                   $9,760,665–$22,954,282
 Improper payments for claims with multiple Medicare documentation
 errors                                                                                                                     365                  $71,279,677                 $59,005,460–$83,553,895
Source: OIG analysis of supplier documentation, 2009.




           OEI-04-07-00401       M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S         32
A     P    P E N D            I X             D




    Estimates and Confidence Intervals: Not Submitted and Incomplete Medicare Documentation
    Error Rates for Power Wheelchair Claims, First Half of 2007
                                                                                                                                                                    95-Percent
    Estimate Description                                                                      Sample Size                  Point Estimate                   Confidence Interval
                                                                   Supporting Documentation
    Document not submitted                                                                                     365                         2.0 %                             0.8%–5.0%
    Incomplete documentation                                                                                   365                        38.3%                         31.7%–45.3%
       Total errors                                                                                            365                        40.3%                         33.6%–47.3%
                                                                  Detailed Product Description
    Document not submitted                                                                                     365                        13.6%                            9.7%–18.7%
    Incomplete documentation                                                                                   365                        26.1%                         20.4%–32.8%
       Total errors                                                                                            365                        39.7%                         33.1%–46.7%
                                                                                Prescription
    Document not submitted                                                                                     365                          1.3%                             0.8%–2.2%
    Incomplete documentation                                                                                   365                        30.8%                         24.7%–37.6%
       Total errors                                                                                            365                        32.1%                         26.0%–38.9%
                                                                    Home Assessment Report
    Document not submitted                                                                                     365                          9.9%                           6.4%–14.8%
    Incomplete documentation                                                                                   365                          8.4%                           5.2%–13.2%
       Total errors                                                                                            365                        18.2%                         13.4%–24.3%
                                                                  Specialty Evaluation Report
    Complex rehabilitation power wheelchair claims for
    which the supplier did not submit a specialty evaluation
    report                                                                                                     124                        29.8%                         22.5%–38.4%
    All power wheelchair claims for which the supplier did
    not submit a specialty evaluation report                                                                   365                          2.0%                             1.5%–2.6%
                                                                            Proof of Delivery
    Document not submitted                                                                                     365                          1.2%                             0.4%–3.7%
                                                                              All Documents
    At least one document not submitted                                                                        365                        19.9%                         15.1%–25.6%
    At least one document incomplete                                                                           365                        56.5%                         49.3%–63.4%
    Overlapping errors                                                                                         365                      (15.9%)                       (11.1%–20.7%)
       Total errors                                                                                            365                        60.4%                         53.2%–67.2%
    Ratio of claims with incomplete document(s) to claims
    with document(s) not submitted                                                                             365                            2.84                              2.09–3.60
    Source: OIG analysis of supplier documentation, 2009.




             OEI-04-07-00401      M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S        33
A     P    P E N D            I X             D




    Estimates and Confidence Intervals: Comparisons of Medicare Documentation Error Rates by Wheelchair
    Type and Supplier Volume, First Half of 2007
                                                                                                                                                                                  95-Percent
                                                                                                                             Sample                   Point                       Confidence
    Estimate Description                                                                                                       Size                Estimate                          Interval    P-Value
                                                                          Comparisons by Wheelchair Type
    Difference in percentage of power wheelchairs for which the supplier did
    not submit complete supporting documentation                                                                                     365                22.5%                  11.3%–33.7%           0.0001
    Difference in percentage of power wheelchairs for which the supplier did
    not submit a complete detailed product description                                                                               365                22.3%                  11.0%–33.5%           0.0001
    Difference in percentage of power wheelchairs for which the supplier did
    not submit a complete prescription                                                                                               365                27.9%                  16.8%–38.9%       <0.0001
    Difference in percentage of power wheelchairs for which the supplier did
    not submit a complete home assessment report                                                                                     365                10.7%                    1.0%–20.4%          0.0309
    Difference in percentage of power wheelchairs for which the supplier did
    not submit one or more complete documents                                                           365                                             34.7%                  25.9%–43.4%       <0.0001
                                                                           Comparisons by Supplier Volume
    Difference in percentage of standard power wheelchairs for which the
    supplier did not submit complete supporting documentation                                                                        241                14.5%                    2.0%–26.9%          0.0228
    Difference in percentage of standard power wheelchairs for which the
    supplier did not submit one or more complete documents                                                                           241                16.3%                    4.3%–28.3%          0.0082
    Source: OIG analysis of supplier documentation, 2009.




            OEI-04-07-00401       M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S            34
A      P    P E N D             I X           D




    Estimates and Confidence Intervals: Incomplete Medicare Documentation Error Rates, First Half of 2007
                                                                                                                                                     Sample                    Point                   95-Percent
    Estimate Description                                                                                                                               Size                 Estimate           Confidence Interval
                                                                                       Supporting Documentation
    Did not include physician’s notes from medical record                                                                                                    365                20.4%                15.6%–26.1%
    No documentation of date supplier received supporting documentation                                                                                      365                   9.9%               6.5%–14.9%
    Included documentation of the date the supplier received the supporting
    documentation, but the supplier did not receive the supporting documentation within
    45 days after the beneficiary examination                                                                                                                365                   9.1%               5.8%–13.9%
    Included documentation of the date the supplier received the supporting
    documentation, but the supplier did not receive the supporting documentation before
    the delivery date                                                                                                                                        365                   8.1%               4.9%–13.2%
    Overlapping errors                                                                                                                                       365                (9.2%)               (5.0%–13.4%)
        Total incomplete documentation                                                                                                                       365                38.3%                31.7%–45.3%
    Median number of days for supplier receipt of supporting documentation after
    beneficiary examination                                                                                                                                  365                      6.8                  5.0–10.9
                                                                                     Detailed Product Description
    Did not include all required information for all billed items                                                                                            365                17.1%                12.5%–22.9%
    No physician signature                                                                                                                                   365                   0.4%                0.2%–1.2%
    No date of physician signature                                                                                                                           365                   0.8%                0.4%–1.6%
    No documentation of the date the supplier received the detailed product description
    from the physician                                                                                                                                       365                   8.4%               5.2%–13.3%
    Claim included documentation of the date the supplier received the detailed product
    description but the supplier did not receive the detailed product description before the
    delivery date                                                                                                                                            365                   5.4%                2.9%–9.8%
    Overlapping errors                                                                                                                                       365                (6.0%)                (2.9%–9.1%)
        Total incomplete documentation                                                                                                                       365                26.1%                20.4%–32.8%
                                                                                                    Prescription
    One or more required elements missing                                                                                                                    365                15.9%                11.6%–21.4%
    No documentation of the date the supplier received prescription                                                                                          365                   9.1%               5.7%–14.1%
    Included documentation of the date the supplier received the prescription, but the
    supplier did not receive the prescription within 45 days after the beneficiary
    examination                                                                                                                                              365                   5.5%                3.1%–9.5%
    Included documentation of the date the supplier received the prescription, but the
    supplier did not receive the prescription before the delivery date                                                                                       365                   5.9%               3.3%–10.3%
    Overlapping errors                                                                                                                                       365                (5.6%)                (2.6%–8.5%)
        Total incomplete documentation                                                                                                                       365                30.8%                24.7%–37.6%
    Median number of days for supplier receipt of prescription after beneficiary examination                                                                 365                      6.6                  4.6–12.0
    Note: Overlapping errors are subtracted to obtain the total.
    Source: OIG analysis of supplier documentation, 2009.




                   OEI-04-07-00401        M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S          35
A   P    P E N D              I X            D




Estimates and Confidence Intervals: Incomplete Medicare Documentation Error Rates, First Half of 2007
(continued)
                                                                                                                                                  Sample                    Point                 95-Percent
Estimate Description                                                                                                                                Size                 Estimate         Confidence Interval
                                                                                    Home Assessment Report
Home assessment was conducted after chair’s delivery                                                                                                      365                  6.9%              4.0%–11.7%
Home assessment report did not address the physical layout of the beneficiary’s home                                                                      365                  2.5%               1.2%–5.2%
Overlapping errors                                                                                                                                        365                (1.0%)              (0.0%–2.3%)
    Total incomplete documentation                                                                                                                        365                  8.4%              5.2%–13.2%
Note: Overlapping errors are subtracted to obtain the total.
Source: OIG analysis of supplier documentation, 2009.




              OEI-04-07-00401        M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S         36
  A P PEN 0                         x        E





  l4.. ,,,,. ,,~
                     DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services


                                                                                            Administrator
                                                                                            Washington, DC 20201




                   DATE:          NOV 1 9 2009
                   TO:           Daniel R. Levinson
                                 Inspector General
                                                    /S/
                   FROM:         -Charlene Frizzera
                                 Acting Administrator

                   SUBJECT:      Office ofInspector General (OIG) Draft Report: "Medicare Power Wheelchair
                                 Claims Frequently Did Not Meet Documentation Requirements"           .
                                 (OEI-04-07-00401)


                   Thank you for the opportunity to review and comment on the OIG's draft report, "Medicare
                   Power Wheelchair Claims Frequently Did Not Meet Documentation Requirements." The
                   Centers for Medicare & Medicaid Services (CMS) appreciates the time and resources the OIG
                   has invested to determine the extent to which standard and complex rehabilitation power
                   wheelchair claims met Medicare documentation requirements.

                   The CMS requires suppliers to maintain specific documentation that supports the beneficiary's
                   need for a power mobility device. The OIG found that 60 percent of claims for standard and
                   complex rehabilitation power wheelchairs did not meet all Medicare documentation
                   requirements. These claims accounted for $112 million in improper payments. The OIG also
                   found complex rehabilitation wheelchairs had a higher documentation error rate than standard
                   power wheelchair claims.

                   The CMS recognizes the complexity of power wheelchair claims and is committed to continually
                   reviewing and refining its processes to reduce improper payments. We are also committed to
                   ensuring that Medicare contractors follow and apply our policies and documentation
                   requirements while reviewing claims.

                   The OIG made the following recommendations.

                   OIG Recommendation

                   Improve compliance with   Medicare'~   power wheelchair documentation requirements.

                   Conduct additional reviews of power wheelchair claims.




OEI·04·07·00401       MEDICARE POWER WHEELCHAIR CLAIMS FREQUENTLY DID NOT MEET DOCUMENTATION REQUIREMENTS                              37
A P P E N D           I X           E




    OEI-04-07-00401    M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   38
A P P E N D          I X               E




  OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   39
A P P E N D       I X             E




    OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   40
A P P E N D       I X             E




    OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   41
           A C K N O W L E D G M E N T S


                                      This report was prepared under the direction of Dwayne F. Grant,
                                      Regional Inspector General for Evaluation and Inspections in the
                                      Atlanta regional office.

                                      Sarah Ambrose and Mina Zadeh served as team leaders for this study.
                                      Other principal Office of Evaluation and Inspections staff from the
                                      Atlanta regional office who contributed to this report include Peggy
                                      Daniel. Berivan Demir, Kevin Farber, and Scott Manley from the
                                      central office; Carolyn Kenline from the Boston regional office; and
                                      Robert A. Vito from the Philadelphia office also contributed.




OEI-04-07-00401   M E D I C A R E P O W E R W H E E L C H A I R C L A I M S F R E Q U E N T LY D I D N O T M E E T D O C U M E N T A T I O N R E Q U I R E M E N T S   42
